TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Filing Characteristics and Examination
                 Results for Partnerships and S Corporations



                                         August 28, 2006

                              Reference Number: 2006-30-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 28, 2006


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                          (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Filing Characteristics and Examination Results
                                for Partnerships and S Corporations (Audit # 200530019)

 This report presents the results of our review of statistical information reflected in the filings and
 examinations of partnership and S corporation1 tax returns. Our overall objective was to analyze
 the filing characteristics and examination trends of these flowthrough entities.2 We conducted
 the review at our own initiative to highlight the important role the National Research Program
 (NRP) study plays in understanding what the rapid growth in filings of partnership and
 S corporation returns means for tax compliance. It has been more than 20 years since the
 Internal Revenue Service (IRS) studied how well these entities comply with tax laws. Since that
 study, flowthrough entities have become the fastest growing segments filing income tax returns
 with the IRS and are annually passing hundreds of billions of dollars in income and losses to
 their partners and shareholders.

 Synopsis
                                                              We conducted the review at our own initiative
 From a practical standpoint, partnerships and                 to highlight the important role the NRP study
 S corporations have long provided a popular                 plays in understanding what the rapid growth in
                                                             filings of partnership and S corporation returns
 way of protecting income from taxation by                               means for tax compliance.
 having the legal capacity to offset wages and

 1
   An S Corporation has a limited number of shareholders and is a small business corporation that elects to be a
 flowthrough entity for income tax purposes.
 2
   Flowthrough entities describe certain entities, such as partnerships and S corporations, because their income,
 losses, credits, and other tax items are generally distributed untaxed to their owners.
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



other income sources that partners and shareholders report on their tax returns. Changes in the
legal and regulatory environment in the 1990s contributed to their popularity. Specifically, the
legal and regulatory changes involved the creation of Limited Liability entities3 and the issuance
of so-called Check-the-Box Regulations4 by the Federal Government. In 2004, the IRS
processed approximately 1.19 million returns filed by Limited Liability entities, which was an
83 percent increase over the 650,000 returns from Limited Liability entities processed in 2000.
Like partnerships, S corporations have the legal capacity to offset income sources that
shareholders report on their income tax returns. Additionally, S corporations provide their
shareholders with the ability to save on the amount of employment taxes they would otherwise
have to pay under most other types of business organizations. The prospect of offsetting income
sources of shareholders and minimizing the amount of employment tax that must be paid can be
particularly attractive benefits and could be reasons S corporations have become the most
common type of corporate entity filing income tax returns with the IRS.
The IRS NRP study is fully underway studying the extent to which S corporations and their
shareholders comply with the tax laws. From a compliance perspective, this effort and another
one under consideration for partnerships are critically important for a number of reasons. Most
important, perhaps, is that the study results are expected to enhance the IRS examination process
that helps ensure taxes on the hundreds of billions of dollars of income and losses passing
through these entities to shareholders and partners are reported and paid. The statistical validity
and comprehensiveness of the NRP study is designed to provide the IRS with updated
compliance data needed for deciding which partnership and S corporation returns should be
examined and how best to focus millions of dollars of examination resources on the most
significant areas of noncompliance.
The IRS last collected data on how well partnerships and S corporations comply with tax laws
more the 20 years ago, and over time these data have become less reliable for examination
workload selection. The IRS increasingly selects partnership and S corporation returns for
examination under special projects to address specific types of noncompliance such as abusive
tax schemes and transactions. Additionally, IRS executives have invested considerable efforts in
various initiatives aimed at making the examination process more efficient.




3
  Limited Liability entities are Limited Liability Companies and Limited Liability Partnerships. A Limited Liability
Company is a business entity that offers its owners the advantage of limited liability (like corporations) and
partnership-like taxation in which profits are passed through to the owners and taxed on their personal income tax
returns. A Limited Liability Partnership is a business entity in which its participants are generally not responsible
for the negligent acts committed by other partners. State statutes allow only certain types of professional businesses,
such as law and accounting firms, to form this type of entity.
4
  Treasury Regulations allow most unincorporated businesses to elect by checking a box whether they will be taxed
as a conventional corporation or as a partnership for Federal income tax purposes.
                                                                                                                     2
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



Although we did not measure the impact these various projects and initiatives have had on the
examination process, IRS statistics show the numbers of partnership and S corporation
examinations are increasing and examiners are spending less time on the examinations while
making more adjustments to the tax returns. Despite these positive trends, the number of
examinations that are closed with no adjustment continues to be high and could likely be reduced
with NRP study data to assist in the identification, selection, and examination processes. In
Fiscal Year 2005, 44 percent of partnership and 43 percent of S corporation examinations
resulted in no adjustments. This no-change rate means a significant amount of resources are
being devoted to unproductive examinations, and compliant partnerships and S corporations are
being unnecessarily burdened.
Besides updating workload selection formulas, the NRP study data are expected to be used for
other important tax administration activities such as identifying areas where instructions and
prefiling taxpayer services could be improved, suggesting legislative changes, and refining
estimates of the tax gap (i.e., the amount of taxes owed but not voluntarily paid). Because of
these benefits, numerous stakeholders, including the Treasury Inspector General for Tax
Administration, Government Accountability Office, and IRS Oversight Board,5 support the
program.

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-8500.




5
 The Oversight Board is a nine-member independent body created by the IRS Restructuring and Reform Act of
1998 (P.L. 105-206) to improve the IRS so it may better serve the public and meet the needs of taxpayers. It is
charged to oversee the IRS in its administration, management, conduct, direction, and supervision of the execution
and application of the internal revenue laws and to provide experience, independence, and stability to the IRS so it
may move forward in a cogent, focused direction.
                                                                                                                       3
                                 Filing Characteristics and Examination Results for
                                          Partnerships and S Corporations




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Partnerships and S Corporations Are the Fastest Growing
          Segments of Taxpayers Filing Tax Returns
          With the Internal Revenue Service ...............................................................Page 3
          National Research Program Results Are Critical to
          Understanding the Impact Partnerships and
          S Corporations Are Having on Compliance .................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Detailed Figures of Statistical Information .........................Page 16
        Filing Characteristics and Examination Results for
                 Partnerships and S Corporations




                  Abbreviations

AIMS          Audit Information Management System
BRTF          Business Return Transaction File
FY            Fiscal Year
IRS           Internal Revenue Service
LLC           Limited Liability Company
LLP           Limited Liability Partnership
NRP           National Research Program
PY            Processing Year
TCMP          Taxpayer Compliance Measurement Program
TIGTA         Treasury Inspector General for Tax Administration
TY            Tax Year
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations




                                             Background

We conducted this review at our own initiative to highlight the important role the National
Research Program (NRP) study has in understanding what the rapid growth in filings of
partnership and S corporation1 returns means for tax compliance. The NRP study is fully
underway studying the extent to which S corporations and their shareholders comply with the tax
laws. The study involves the identification, selection, and examination of approximately
5,000 tax returns filed by S corporations and processed by the Internal Revenue Service (IRS) for
Tax Years (TY) 2003 and 2004. Statistically valid sampling techniques are being used so the
results from the examinations can reliably measure the level of compliance in the universe of
S corporations filing tax returns.
From a compliance perspective, this effort and another one under consideration for partnerships
are critically important for several reasons. Most important, perhaps, is that the study results are
expected to improve the IRS examination process by helping ensure the taxes on hundreds of
billions of dollars of income and losses passing through these entities are reported and paid
properly. The statistical validity and comprehensiveness of the NRP study is designed to provide
the IRS with updated compliance data needed for deciding which partnership and S corporation
returns should be examined and how best to focus millions of dollars of examination resources
on the most significant areas of noncompliance.
During the review, we relied on computer programs to obtain data from IRS databases. In
testing the data, we noted there were some data elements missing from the databases. This can
occur when information is not included on a tax return when it is filed. We also matched a
database containing tax return information with one containing examination results. As part of
this matching process, we were unable to match all records in the databases. Where information
was missing or records were unable to be matched, we noted this by using the term “Unknown”
in the figures presented throughout the report.
The review was performed at the Treasury Inspector General for Tax Administration (TIGTA)
Office of Audit in Los Angeles, California, during the period August 2005 through July 2006.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II. Detailed figures referred to in the body of the
report are included in Appendix IV. Many of the calculations throughout the report and


1
  An S Corporation has a limited number of shareholders and is a small business corporation that elects to be a
flowthrough entity for income tax purposes. Flowthrough entities describe certain entities, such as partnerships and
S corporations, because their income, losses, credits, and other tax items are generally distributed untaxed to their
owners.
                                                                                                             Page 1
                            Filing Characteristics and Examination Results for
                                     Partnerships and S Corporations



Appendix IV are affected by rounding. All initial calculations were performed using actual
numbers rather than the rounded numbers that appear in the report. The report does not include
examination results from the Coordinated Industry Case Program2 because relatively few entities
are examined under this Program, and the examination procedures and techniques differ from the
vast majority of other examinations conducted by the IRS.




2
 The Coordinated Industry Case Program uses a team approach to examine the largest business entities on a
continuous basis.
                                                                                                            Page 2
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations




                                       Results of Review

Partnerships and S Corporations Are the Fastest Growing Segments
of Taxpayers Filing Tax Returns With the Internal Revenue Service
From a practical standpoint, partnerships and S corporations have long provided a popular way
of protecting income from taxation because they have the legal capacity to offset wages and
other income sources that partners and shareholders report on their tax returns. Organizing a
business as a partnership or an S corporation also allows these entities, as well as their partners
and shareholders, to avoid double taxation on business profits. This treatment is unlike the
traditional corporation that incurs a tax liability first at the corporate level and again when
business profits are distributed to shareholders in the form of dividends. As illustrated in
Appendix IV, operating as a partnership or S corporation can result in considerable tax savings.
Between January 2000 and December 2004, the number of partnership and S corporation tax
returns processed annually by the IRS grew 21 percent, from 4.96 million to 6 million. By 2012,
the IRS is projecting this number will increase another 42 percent to approximately 8.49 million.

Limited Liability entities3 are a driving factor in the growth rate of partnerships
filing tax returns
Changes in the legal and regulatory environment in the 1990s contributed to making partnerships
the fastest growing segment of all filers of tax returns with the IRS. Specifically, the changes
involved the creation of Limited Liability Companies (LLC) and Limited Liability Partnerships
(LLP)4 by State governments and the issuance of the so-called Check-the-Box Regulations5 by
the Federal Government. In 2004, the IRS processed approximately 1.19 million returns filed by
Limited Liability entities. This was an 83 percent increase over the nearly 650,000 returns from
Limited Liability entities processed in 2000 and represented 47 percent of partnership returns
processed in 2004 (see Figure 1).6


3
  When we refer to Limited Liability entities in this report, collectively we mean Limited Liability Companies
(LLC) and Limited Liability Partnerships (LLP).
4
  An LLC is a business entity that offers its owners the advantage of limited liability (like corporations) and
partnership-like taxation. An LLP is a business entity in which its participants are generally not responsible for the
negligent acts committed by other partners. State statutes allow only certain types of professional businesses, such
as law and accounting firms, to form this type of entity.
5
  Treasury Regulation 301.7701-3 (2006) allows most unincorporated businesses to elect by checking a box whether
they will be taxed as a corporation or as a partnership for Federal income tax purposes.
6
  See Appendix IV, Figures 4 and 5.
                                                                                                              Page 3
                                 Filing Characteristics and Examination Results for
                                          Partnerships and S Corporations




             Figure 1: Numbers and Types of Partnership Returns Processed
                         in Processing Years (PY) 2000 – 2004
                                                                                                                     Percentage
      Type of Partnership                                         Processing Years7                                   Change
                                                                                                                     PYs 2000 -
                                           2000           2001            2002           2003           2004            2004
General Partnership                        918,631        876,586         832,843        796,323        762,719         -16.97%
Limited Partnership (┼)                    362,595        370,533         384,120        394,287        402,840          11.10%
LLC                                        606,760        714,048         832,268        962,894      1,106,678          82.39%
LLP (┼)                                     43,049         59,006          65,646         73,927         81,189          88.60%
All other (√)                              134,093        143,662         151,057        165,656        170,463          27.12%
         Totals                          2,065,128      2,163,835       2,265,934      2,393,087      2,523,889          22.21%
(┼) A limited partnership is one with at least one general partner in which limited partners can purchase an interest and be liable
only to the extent of their interests and not risk personal liability. In an LLP, each partner is fully liable for the debts of the
partnership but not for acts of professional negligence or malpractice committed by the other partners.
(√) All other includes other partnerships and foreign partnerships for which the IRS began collecting data in PY 2001 and
partnerships with no entity designation.
Source: TIGTA analysis of the IRS Business Return Transaction File (BRTF)8 for PYs 2000 - 2004.

As with all partnerships, most LLC partnership returns processed in 2000 through 2004 were
concentrated in the finance/insurance industry sector and real estate industry sector. During this
5-year period, these 2 industry sectors filed 52.25 percent of all partnership returns processed.
They reported accumulating $7.3 trillion in assets and distributing $68 billion of income and
$36 billion in losses to their partners. The $7.3 trillion in assets represented 74 percent of the
total assets on all partnership returns processed in 2004.
Partnership returns in the finance/insurance industry sector and real estate industry sector also
were more likely to be linked to other partnerships. These linkages are referred to as tiered
partnerships and generally involve a partnership that owns or is owned by one or more other
partnerships. Tiered partnership returns processed in 2000 through 2004 for the real estate
industry sector grew at a rate of 27.36 percent, while those in the finance/insurance industry
sector grew by more than 50 percent. Of those partnerships with less than $250,000 in total
assets, only 11 percent were linked to other partnerships while 72.75 percent of those with over
$250 million in assets were linked to other partnerships.




7
 A processing year includes all returns processed in a calendar year.
8
 The BRTF is a computer file of the transcribed line items on all business returns and their accompanying schedules
or forms.
                                                                                                                           Page 4
                               Filing Characteristics and Examination Results for
                                        Partnerships and S Corporations



Most S corporations have less than $10 million in assets and only 1 shareholder
The growth in the number of S corporation returns processed from 2000 through 2004 continued
a trend that was started in 1997 when they became the most common type of corporate entity
filing income tax returns. In 2004, the IRS processed approximately 3.5 million S corporation
returns. This was a 21 percent increase over the 2.89 million S corporation returns processed in
2000. S corporations with assets of less than $10 million represented over 99 percent of the
S corporations filed in 2004 (see Figure 2).

                     Figure 2: Numbers and Types of S Corporation Returns
                                 Processed in PYs 2000 – 2004
                                                                                                       Percentage
     Asset Classification                          Processing Years                         Change      Change
                                                                                            PY 2000     PY 2000
                                2000        2001         2002         2003       2004         to           to
                                                                                            PY 2004     PY 2004
    Under $250,000             2,262,371   2,359,609   2,477,088   2,628,151    2,746,315    483,944       21.39%
    $250,000 to under
    $1 million                  404,521     425,186      446,401      463,983    478,266      73,745       18.23%
    $1 million to under
    $5 million                  173,570     182,275      191,358      197,359    202,867      29,297       16.88%
    $5 million to under
    $10 million                  27,180      29,076       29,898       31,073     31,952       4,772       17.56%
    Totals less than
    $10 million                2,867,642   2,996,146   3,144,745   3,320,566    3,459,400    591,758       20.64%
    $10 million to under
    $50 million                  19,469      21,336       22,124       23,025     24,347       4,878       25.06%
    $50 million to under
    $100 million                  1,846       2,053        2,297        2,418      2,524        678        36.73%
    $100 million to under
    $250 million                  1,016       1,126        1,374        1,383      1,449        433        42.62%
    $250 million and over           462         602          952          668        660        198        42.86%
    Totals $10 million or
    more                          22,793      25,117      26,747      27,494       28,980      6,187       27.14%
                Grand Totals   2,890,435   3,021,263   3,171,492   3,348,060    3,488,380    597,945       20.69%
Source: TIGTA analysis of the S corporation BRTF for PYs 2000 - 2004.

Unlike partnerships, the S corporation filings were distributed over a wider variety of industries9
although most S corporation tax returns processed in 2000 through 2004 were concentrated in a
variety of service industry sectors. In 2004, the service industry sectors filed 31.26 percent of all
S corporation returns processed. That same year, the service industry sectors reported holding
$246 billion in assets and distributing $50 billion of income and $13.8 billion in losses to their
shareholders. However, the $246 billion in assets represented only 11 percent of the total assets
on all S corporation returns processed in 2004.

9
    See Appendix IV, Figures 7 and 9.
                                                                                                           Page 5
                              Filing Characteristics and Examination Results for
                                       Partnerships and S Corporations



S corporations additionally provide                   Figure 3: S Corporation Ownership
shareholders with the ability to save on the
amount of employment taxes they would
                                                  20,143,     229,567,
have to pay if they were structured as sole        (1%)         (7%)
                                                                                          1 Shareholder

proprietorships or partnerships. Continuing       183,574,                                2 Shareholders
a trend that has existed for many years,            (5%)                                  3 Shareholders
S corporations owned by a sole shareholder        187,927,
                                                                                          4 to 10
dominated the data. Of the 3.45 million              (5%)
                                                                                          Shareholders
S corporation tax returns processed in                                                    All Others
                                                  954,801,                    1,875,969,
2004, approximately 54 percent had sole            (28%)                        (54%)     Unknow n
ownership (see Figure 3). As we have
previously reported,10 single ownership in       Source: TIGTA analysis of S corporation BRTF for
an S corporation has the benefit of allowing PY 2004.
owners to pay employment taxes on only
the portion of profits they decide to pay themselves as a salary. This is very different from a sole
proprietorship11 that pays employment taxes based on a percentage of all profits. Single owners
of S corporations annually paid themselves an average of $33,853 on returns filed in 2004. In
contrast, these same S corporation returns reported average operating profits of $34,683 after
taking deductions for officers’ salaries. This permitted sole-shareholder S corporations to save
nearly $8.4 billion in employment taxes in TY 2003, or $4,504 on average. The prospect of
offsetting income sources of shareholders or minimizing the amount of employment taxes that
must be paid can be particularly attractive benefits and may be a primary reason why
S corporations have become the most common type of corporate entity filing income tax returns
with the IRS.

National Research Program Results Are Critical to Understanding the
Impact Partnerships and S Corporations Are Having on Compliance
The IRS last collected data on how well partnerships and S corporations comply with the tax law
more the 20 years ago under its Taxpayer Compliance Measurement Program (TCMP).12 As we
reported in 2004,13 these data are out of date and, accordingly, less reliable for identifying,
selecting, and examining the tax returns that pose the greatest compliance risk. The IRS, as a
result, increasingly selects partnership and S corporation returns for examination under special

10
   Actions Are Needed to Eliminate Inequities Between Sole Proprietorships and Single Shareholder S Corporations
(Reference Number 2005-30-080, dated May 2005).
11
   A sole proprietorship is a business operated by one person who owns all assets and is responsible for all liabilities.
12
   The TCMP was a systematic program of tax return examinations conducted to facilitate the compilation of
compliance data and estimate the tax gap prior to the National Research Program. The last Taxpayer Compliance
Measurement Program process involved TY 1988 individual income tax returns.
13
   Additional Efforts Could Further Improve the Execution of the National Research Program (Reference
Number 2004-30-044, dated January 2004).
                                                                                                                Page 6
                               Filing Characteristics and Examination Results for
                                        Partnerships and S Corporations



projects to address specific types of noncompliance such as tax shelters. Additionally, IRS
executives have invested considerable efforts in various initiatives aimed at making the
examination process more efficient. Although we did not measure the impact these various
projects and initiatives have had on the examination process, IRS statistics show the numbers of
partnership and S corporation examinations are increasing and examiners are spending less time
on the examinations while making more adjustments to the tax returns. Despite these positive
trends, the number of examinations closed with no adjustment continues to be high and could
likely be reduced with NRP data to assist in the identification, selection, and examination
processes.

The numbers of partnership and S corporation examinations are increasing and
will likely continue to do so in the future
Although the IRS has historically emphasized examining taxable entities, such as sole
proprietorships, it is moving away from this emphasis and towards one that is focused on
maintaining examination coverage across all filing segments and on areas presenting the highest
compliance risk. This new focus will likely contribute to an increase in the numbers of
partnership and S corporation tax returns examined if coverage is to be maintained over the
growing number of tax returns expected to be filed by these entities. The IRS closed 37 percent
more partnership examinations and 63 percent more S corporation examinations in Fiscal
Year (FY) 2005 than it did in FY 2004 (see Figure 4). The increases occurred in nearly every
size of partnership and S corporation but generally varied by industry segment.14




14
     See Appendix IV, Figures 14, 15, 16, and 17.
                                                                                          Page 7
                              Filing Characteristics and Examination Results for
                                       Partnerships and S Corporations




                Figure 4: FYs 2004 and 2005 Partnership and S Corporation
                          Examination Closures, by Total Assets
                                    Partnership Returns Examined          S Corporation Returns Examined
                                                         Percentage                             Percentage
         Total Assets              FY 2004    FY 2005      Change        FY 2004    FY 2005      Change
 Under $250,000                       2,199       3,544        61%           3,473      5,737          65%
 $250,000 to under $1 million           622       1,035        66%             616      1,189          93%
 $1 million to under $5 million         838       1,243        48%             617      1,353         119%
 $5 million to under $10 million        356         469        32%             282        569         102%
 $10 million to under
 $50 million                            982         935           -5%          795        1,063            34%
 $50 million to under
 $100 million                           272         286            5%          132          150            14%
 $100 million to under
 $250 million                          290          307         6%            91       106            16%
 $250 million and over                 348          409        18%            58         42          -28%
 Unknown                               254          187       -26%           336       201           -40%
           Totals                    6,161       8,415         37%         6,400    10,410            63%
                                                                        15
Source: TIGTA analysis of the Audit Information Management System (AIMS) for partnership and S corporation
return examinations completed in FYs 2004 and 2005.

In terms of areas presenting the greatest compliance risk, the IRS has identified abusive tax
schemes and transactions as a priority area for increased examination activity. This focus has
increased and will likely continue to increase the numbers of partnership and S corporation
returns that are examined. In 2000, the IRS published guidance on 10 transactions that could
trigger an examination because they purportedly abuse the tax law, represent a significant loss of
tax revenue, and undermine the public’s confidence in the tax system. By 2004, there were
31 such transactions, 9 (29 percent) of which required the involvement of a partnership or an
S corporation in the transaction.

Partnership and S corporation examinations are taking less time and generating
more adjustments to items reported on the tax returns
IRS surveys have shown consistently that business taxpayers believe the examination process is
too long and consumes too much time. To address this issue and better leverage its examination
resources, IRS executives have invested considerable effort in developing and implementing
work process changes focused on reducing the length of examinations. Although we did not
measure the impact the efforts have had on examinations, IRS statistics show that both the
number of hours and number of calendar days spent on partnership and S corporation

15
  The AIMS is a computer system used during examination and appeals activities to control returns, input
assessments/adjustments to the Master File, and provide management reports. The Master File is an IRS database
that stores various types of taxpayer account information. This database includes individual, business, and
employee plans and exempt organizations data.
                                                                                                         Page 8
                              Filing Characteristics and Examination Results for
                                       Partnerships and S Corporations



examinations decreased between FYs 2004 and 2005. The average number of days decreased
nearly 19 percent, and the number of hours decreased nearly 34 percent on partnership
examinations (see Figure 5).16 Similar trends existed for S corporations during the period.17
 Figure 5: Comparison Between the Numbers of Calendar Days and Hours Spent
       on Partnership Examinations in FYs 2004 and 2005, by Total Assets
                                       Average Number of Days               Average Number of Hours
                                                        Percentage                            Percentage
         Total Assets              FY 2004    FY 2005     Change        FY 2004    FY 2005     Change
 Under $250,000                         495        456      -7.88%         43.80      38.99      -10.98%
 $250,000 to under $1 million           530        350     -33.96%         48.69      36.13      -25.80%
 $1 million to under $5 million         551        386     -29.95%         55.95      34.49      -38.36%
 $5 million to under $10 million        511        521       1.96%         79.15      50.74      -35.89%
 $10 million to under
 $50 million                             482       516        7.05%        114.35       79.60        -30.39%
 $50 million to under
 $100 million                            479       581       21.29%        138.20      103.85        -24.86%
 $100 million to under
 $250 million                         544           554        1.84%        150.41       84.65        -43.72%
 $250 million and over                735           625      -14.97%        304.24      149.88        -50.74%
 Unknown                            2,521         1,585      -37.13%         36.26       31.51        -13.10%
           Totals                     590           478      -18.98%         73.87       48.89        -33.82%
Source: TIGTA analysis of the AIMS for partnership and S corporation return examinations completed in FYs 2004
and 2005.

While the time and length of partnership and S corporation examinations are trending downward,
the amount of examination adjustments made to items reported on the tax returns increased
81 percent between FYs 2004 and 2005.18 When analyzing the examination adjustments, it is
important to recognize what they do and do not represent. The examination adjustments, in
general, measure only the items or portion of items the examiner believes were not properly
reported on the tax return when it was filed. Examination adjustments do not measure the
amount of taxes that ultimately will be assessed. Generally, the taxes assessed are significantly
lower than the adjustments recommended by examiners to the items on the tax returns.
At the close of an examination, the partners or shareholders may either agree or disagree with the
examiner’s determination. If the partners or shareholders agree, the examination adjustments are
passed through to their individual tax returns where the taxes are computed based on their
income tax brackets and percentage ownership in the entity. For example, if adjustments of
$4,000 were made to the deductions on a tax return of an S corporation that had 2 equal
shareholders who were in the maximum 35 percent tax bracket, each shareholder would be

16
   See Appendix IV, Figures 25 and 27.
17
   See Appendix IV, Figures 26 and 28.
18
   See Appendix IV, Figures 21 and 22.
                                                                                                      Page 9
                              Filing Characteristics and Examination Results for
                                       Partnerships and S Corporations



assessed $700 (50 percent of $4,000 multiplied by the 35 percent tax rate). If the partners or
shareholders disagree with the examiner’s determination, the dispute is generally settled through
the IRS appeals process or the court system, both of which can significantly reduce or even
eliminate the adjustments.
                                                               Due to limitations with the IRS databases,
      Figure 6: Partnership and S Corporation                  we were unable to determine the tax
          Adjustments FY 2005 (in billions)                    assessments from partnership and
                                                               S corporation examinations. However,
                                                               the databases do track the amount of
                                      $2.591                   recommended adjustments and show that
                                      Billion,                 these entities are agreeing to more
       $3.565                          (42%)       Agreed
                                                               recommended adjustments. Nonetheless,
       Billion,                                    Disagreed   the entities agreed with only 42 percent of
        (58%)                                                  the adjustments recommended in
                                                               FY 2005 (see Figure 6). They continued
                                                               to disagree with most adjustments. In
     Source: TIGTA analysis of the FY 2005 AIMS.               FY 2005, partnerships and S corporations
                                                               disagreed with 58 percent of the
$6.2 billion in recommended adjustments.19

The numbers of partnership and S corporation examinations that result in no
adjustments remains a concern
Despite the positive trends in examination results, the large numbers of partnership and
S corporation examinations closed with no adjustments will likely continue without NRP data to
assist in the identification, selection, and examination processes. As the IRS reported to
Congress in 2003, this no-change rate means a significant amount of resources are being devoted
to unproductive examinations, and compliant partnerships and S corporations are being
unnecessarily burdened.
In FY 2005, 44 percent of partnership and 43 percent of S corporation examinations resulted in
no adjustments. From FY 2004, this was a 16 percent increase for partnerships and a 48 percent
increase for S corporations (see Figure 7). The no-change rates in FYs 2001, 2002, and 2003 for
partnerships were in the upper 40 percent range, while for S corporations they were in the upper
30 percent range.20




19
     See Appendix IV, Figures 23 and 24.
20
     See Appendix IV, Figures 19 and 20.
                                                                                                  Page 10
                              Filing Characteristics and Examination Results for
                                       Partnerships and S Corporations




                Figure 7: FYs 2004 and 2005 Partnership and S Corporation
                     No-Change Examination Results, by Total Assets
                                   Percentage of Partnership Return     Percentage of S Corporation Return
                                    Examinations With No Changes          Examinations With No Changes
                                                          Percentage                           Percentage
         Total Assets              FY 2004    FY 2005       Change      FY 2004     FY 2005      Change
 Under $250,000                     33.93%       41.86%       23.40%      29.62%      40.55%        36.92%
 $250,000 to under $1 million       33.93%       55.40%       63.30%      21.92%      40.69%        85.67%
 $1 million to under $5 million     38.68%       52.79%       36.48%      21.79%      52.48%       140.84%
 $5 million to under $10 million    47.99%       42.17%      -12.13%      24.11%      55.71%       131.04%
 $10 million to under
 $50 million                        48.83%      38.66%      -20.83%       41.27%      45.52%         10.32%
 $50 million to under
 $100 million                       49.54%      37.60%      -24.10%       38.64%      31.29%         -19.01%
 $100 million to under
 $250 million                     31.11%       38.03%         22.25%       34.44%      36.79%           6.82%
 $250 million and over            27.44%       28.72%          4.66%       20.00%      35.90%          79.49%
 Unknown                          29.61%       28.33%         -4.32%       23.33%      29.35%          25.80%
           Totals                 37.94%       44.13%         16.32%       29.16%      43.05%          47.62%
Source: TIGTA analysis of the AIMS for partnership and S corporation return examinations completed in FYs 2004
and 2005.

IRS officials told us they are concerned with the trend in the number of no-change examinations
and are evaluating closed examination case files to determine if factors other than the absence of
current compliance data may be contributing to the no-change rates. Additionally, officials
noted that the productivity from partnership and S corporation examinations may be higher than
reflected by the no-change rate because the IRS reports the results as a no-change when the
adjustments do not change the partnership or S corporation tax return, but do change a partner or
shareholder tax return.
Besides providing updated data for deciding which tax returns should be examined, the NRP
study data are expected to be used for such other important tax administration activities as
identifying areas in which instructions and prefiling taxpayer services could be improved,
suggesting legislative changes, and refining estimates of the tax gap (i.e., the amount of taxes
owed but not voluntarily paid). Because of its benefits, numerous stakeholders support the NRP.
In addition to the TIGTA, the Government Accountability Office has discussed and reiterated the
need for such compliance data in several reports and Congressional testimony.21 The
IRS Commissioner has indicated the NRP is critical for measuring the level and sources of


21
  Testimony on Making Significant Progress in Improving Tax Compliance Rests on Enhancing Current IRS
Techniques and Adopting New Legislative Actions (Washington DC: GAO-06-453T, February 15, 2006), 11 and
Report on Better Compliance Data and Long-Term Goals Would Support a More Strategic IRS Approach to
Reducing the Tax Gap (Washington DC: GAO-05-753, July 2005) 7-19.
                                                                                                     Page 11
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



noncompliance. In its FY 2001 annual report, the IRS Oversight Board22 supported the effort
and solicited Congressional support for the Program.




22
  The IRS Oversight Board is a nine-member independent body created by the IRS Restructuring and Reform Act
of 1998 (P.L. 105-206) to improve the IRS so it may better serve the public and meet the needs of taxpayers. It is
charged to oversee the IRS in its administration, management, conduct, direction, and supervision of the execution
and application of the internal revenue laws and to provide experience, independence, and stability to the IRS so it
may move forward in a cogent, focused direction.
                                                                                                            Page 12
                               Filing Characteristics and Examination Results for
                                        Partnerships and S Corporations



                                                                                                      Appendix I

           Detailed Objective, Scope, and Methodology

 The overall objective of the review was to analyze the filing characteristics and examination
 trends of flowthrough entities.1 We used computer programs to obtain data from the IRS BRTF2
 and AIMS.3 We did not audit to determine the accuracy and reliability of the information in any
 of the databases. However, we assessed the reasonableness and completeness of the data
 analyzed as outlined in Steps III. and IV. To accomplish our objective, we:
  I.     Analyzed extracts from the IRS BRTF to assess the filing characteristics and trends of
         partnership and S corporation returns processed in PYs 2000 through 2004.
 II.     Analyzed extracts from the IRS AIMS to assess the characteristics and trends of
         partnership and S corporation examinations closed in FYs 2001 through 2005.
III.     Compared extracts from the IRS BRTF to the IRS Data Books4 to provide assurances the
         data analyzed were reasonable and complete.
IV.      Compared extracts from the IRS AIMS to the IRS Table 37, Examination Program
         Monitoring, to provide assurances the data analyzed were reasonable and complete.




 1
   Flowthrough entities describe certain entities, such as partnerships and S corporations, because their income,
 losses, credits, and other tax items generally are distributed untaxed to their owners.
 2
   The BRTF is a computer file of the transcribed line items on all business returns and their accompanying schedules
 or forms.
 3
   The AIMS is a computer system used during examination and appeals activities to control returns, input
 assessments/adjustments to the Master File, and provide management reports. The Master File is an IRS database
 that stores various types of taxpayer account information. This database includes individual, business, and
 employee plans and exempt organizations data.
 4
   IRS Data Books contain tax administration statistics on topics such as examination activities, collections, penalties,
 and refunds.
                                                                                                               Page 13
                       Filing Characteristics and Examination Results for
                                Partnerships and S Corporations



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle Andersen, Director
Frank Dunleavy, Audit Manager
Earl Charles Burney, Lead Auditor
William Tran, Senior Auditor
Layne Powell, Information Technology Specialist




                                                                                        Page 14
                       Filing Characteristics and Examination Results for
                                Partnerships and S Corporations



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Research, Office of Research, Analysis, and Statistics RAS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Research, Small Business/Self-Employed Division SE:S:R
Director, Strategy, Research, and Program Planning, Large and Mid-Size Business Division
SE:LM:SR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner C
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 15
                                  Filing Characteristics and Examination Results for
                                           Partnerships and S Corporations



                                                                                                                 Appendix IV

              Detailed Figures of Statistical Information

Figure 1 – Income Tax Advantages of Flowthrough Entities...................................Page 18
Figure 2 – Partnership Filings by Asset Class ..........................................................Page 19
Figure 3 – S Corporation Filings by Asset Class......................................................Page 19
Figure 4 – Partnership Filings by Type of Entity Classification ..............................Page 20
Figure 5 – Composition of Partnership Entity Filings (PYs 2000 and 2004)...........Page 20
Figure 6 – Industry Composition of Partnership Filings (PY 2004).........................Page 21
Figure 7 – Industry Composition of S Corporation Filings (PY 2004) ....................Page 21
Figure 8 – Partnership Filings by Industry Classification ........................................Page 22
Figure 9 – S Corporation Filings by Industry Classification ....................................Page 23
Figure 10 – Ownership of Partnerships (PY 2004)...................................................Page 24
Figure 11 – Ownership of S Corporations (PY 2004) ..............................................Page 24
Figure 12 – Tiered Partnership Filings by Asset Class.............................................Page 25
Figure 13 – Top 5 Industry Classifications of Tiered Partnership Filings
            With Assets of $10 Million or More .....................................................Page 25
Figure 14 – Partnership Return Examinations by Asset Class .................................Page 26
Figure 15 – S Corporation Return Examinations by Asset Class .............................Page 26
Figure 16 – Top 5 Industry Classifications of Partnership Return Examinations ....Page 27
Figure 17 – Top 5 Industry Classifications of S Corporations Return
            Examinations .........................................................................................Page 27
Figure 18 – Partnership Return Examinations by Type of Entity Classification......Page 28
Figure 19 – Partnership Return Examination No-Change Rates by Asset Class......Page 28
Figure 20 – S Corporation Return Examination No-Change Rates by Asset
            Class ......................................................................................................Page 29
Figure 21 – Partnership Adjustments........................................................................Page 29
Figure 22 – S Corporation Adjustments ...................................................................Page 30
                                                                                                                              Page 16
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



Figure 23 – Partnership Unagreed and Agreed Examination Results by
            Asset Class (FYs 2004 – 2005) .............................................................Page 30
Figure 24 – S Corporation Unagreed and Agreed Examination Results by
            Asset Class (FYs 2004 – 2005) .............................................................Page 31
Figure 25 – Partnership Examination Hours per Return by Asset Class ..................Page 31
Figure 26 – S Corporation Examination Hours per Return by Asset Class..............Page 32
Figure 27 – Partnership Examination Cycle Time per Return by Asset Class .........Page 32
Figure 28 – S Corporation Examination Cycle Time per Return by Asset Class.....Page 33




                                                                                                             Page 17
                         Filing Characteristics and Examination Results for
                                  Partnerships and S Corporations



Figure 1: Income Tax Advantages of Flowthrough Entities. One benefit of operating as a
partnership or S corporation is that business profits are taxed only once, rather than twice like a
conventional corporation. This can be illustrated with the following example assuming the
maximum corporate and individual tax rates are applicable for the entities involved and all
profits are remitted to the owners. In a conventional corporation, $1,000 of business profits is
first taxed at the corporate level, resulting in $350 in corporate income tax ($1,000 multiplied by
the 35 percent maximum corporate tax rate), with the remaining $650 being paid to the
shareholder as a dividend. The $650 dividend is subject to a special 15 percent tax rate for
dividends at the individual level for a personal income tax of $97.50 ($650 multiplied by the
15 percent). As a result, the total tax on $1,000 of corporate earnings is $447.50. In contrast,
$1,000 of business profits in a flowthrough entity (partnership or S corporation) is taxed only
once at the individual level, resulting in a tax of $350 ($1,000 multiplied by the 35 percent
individual tax rate).


           Investor Level                                     Investor Level
          Profit   $650.00                                  Profit $1,000.00
          Tax Rate ___15%                                   Tax Rate____35%
          Tax      $ 97.50                                  Tax    $ 350.00

                                      $650 Dividend                                  $1,000
                                                                                  Flowthrough

          Corporation Level                                Flowthrough Entity
                                                                 Level
          Profit   $1,000.00                              Profit  $1,000.00
          Tax Rate _____35%                               Tax Rate______0%
          Tax      $ 350.00                               Tax     $     0.00


                 Tax on $1,000 of                                Tax on $1,000 of
                Corporation Profits                             Flowthrough Profits

          Corporate Level      $350.00                    Flowthrough Level $ 0.00
          Investor Level       __97.50                    Investor Level     _350.00
             Total Tax         $447.50                       Total Tax       $350.00
          Effective Tax Rate     44.8%                    Effective Tax Rate    35%




                                                                                           Page 18
                                 Filing Characteristics and Examination Results for
                                          Partnerships and S Corporations



Figure 2: Partnership Filings by Asset Class. Partnership filings grew 22.21 percent in
PYs 2000 - 2004. Partnerships reporting assets of over $10 million grew 36.71 percent, while
those reporting assets of $10 million and under grew 21.81 percent.
                                                                                                     Percentage
                                                          Processing Years                            Change
                                                                                                     PYs 2000 -
              Asset Class                2000        2001        2002          2003        2004         2004
     Under $250,000                    1,319,655   1,351,902   1,389,769     1,482,285   1,554,061       17.76%
     $250,000 to under $1 million        374,111     400,938     427,266       439,215     466,473       24.69%
     $1 million to under $5 million      266,406     293,183     317,943       334,975     359,028       34.77%
     $5 million to under $10 million      48,798      54,725      60,240        64,144      67,555       38.44%
     $10 million to under
     $50 million                         42,451      47,885      53,292        55,173      58,562        37.95%
     $50 million to under
     $100 million                         6,223       6,912       7,878         7,737       8,130        30.64%
     $100 million to under
     $250 million                        4,355       4,830        5,496          5,497       5,705       31.00%
     $250 million and over               3,129       3,460        4,050          4,061       4,375       39.82%
               Totals               2,065,128 2,163,835 2,265,934            2,393,087   2,523,889       22.21%
    Source: TIGTA analysis of the partnership BRTF1 for PYs 2000 - 2004.

Figure 3: S Corporation Filings by Asset Class. S corporation filings grew 20.69 percent in
PYs 2000 - 2004. S corporations reporting assets of over $10 million grew 27.14 percent, while
those reporting assets of $10 million or under grew 20.64 percent.
                                                                                                     Percentage
                                                          Processing Years                            Change
                                                                                                     PYs 2000 -
              Asset Class                2000        2001        2002          2003        2004         2004
     Under $250,000                    2,262,371   2,359,609   2,477,088     2,628,151   2,746,315       21.39%
     $250,000 to under $1 million        404,521     425,186     446,401       463,983     478,266       18.23%
     $1 million to under $5 million      173,570     182,275     191,358       197,359     202,867       16.88%
     $5 million to under $10 million      27,180      29,076      29,898        31,073      31,952       17.56%
     $10 million to under
     $50 million                         19,469      21,336      22,124        23,025      24,347        25.06%
     $50 million to under
     $100 million                         1,846       2,053       2,297         2,418       2,524        36.73%
     $100 million to under
     $250 million                        1,016       1,126       1,374    1,383              1,449       42.62%
     $250 million and over                 462         602          952     668                660       42.86%
               Totals                2,890,435 3,021,263 3,171,492 3,348,060             3,488,380       20.69%
    Source: TIGTA analysis of the S corporation BRTF for PYs 2000 - 2004.



1
 The BRTF is a computer file of the transcribed line items on all business returns and their accompanying schedules
or forms.
                                                                                                         Page 19
                               Filing Characteristics and Examination Results for
                                        Partnerships and S Corporations



Figure 4: Partnership Filings by Type of Entity Classification. Overall partnership filings
grew 22.21 percent. In PYs 2000 - 2004, components grew as follows: LLCs 82.39 percent,
LLPs 88.60 percent, and Limited Partnerships 11.10 percent. General partnerships declined
nearly 17 percent over the same period. Foreign partnerships grew 79.48 percent, and other
partnerships grew 32.78 percent.
                                                                                                       Percentage
                                                         Processing Years                               Change
                                                                                                       PYs 2000 -
      Partnership Classification       2000       2001         2002           2003           2004         2004
     General Partnership               918,631    876,586      832,843        796,323        762,719      -16.97%
     Limited Partnership               362,595    370,533      384,120        394,287        402,840       11.10%
     LLC                               606,760    714,048      832,268        962,894      1,106,678       82.39%
     LLP                                43,049      59,006       65,646        73,927         81,189       88.60%
     Foreign Partnership2                            2,178        3,033         3,530          3,909       79.48%
     Other3                                          6,650        7,737         8,393          8,830       32.78%
     Unknown                           134,093    134,834      140,287        153,733        157,724       17.62%
              Totals                2,065,128 2,163,835 2,265,934           2,393,087      2,523,889       22.21%
    Source: TIGTA analysis of the partnership BRTF for PYs 2000 - 2004.

Figure 5: Composition of Partnership Entity Filings (PYs 2000 and 2004). LLCs increased
from 29 percent to 44 percent of partnerships, while General Partnerships decreased from
45 percent to 30 percent and Limited Partnerships decreased from 18 percent to 16 percent.

                    Processing Year 2000                                   Processing Year 2004
                  (2,065,128 Returns Filed)                               (2,523,889 Returns Filed)
                         134,093,                           12,739,
          43,049,                                                               157,724,
                           (6%)                              (1%)
           (2%)                                                                   (6%)
                                                                                                  762,719,
                                                           81,189,
                                                                                                   (30%)
                                          918,631,          (3%)
        606,760,
                                           (45%)
         (29%)


                                                               1,106,678,
           362,595,
                                                                 (44%)
            (18%)                                                                               402,840,
          General           Limited           LLC                                                (16%)
          LLP               Other             Unknown

Source: TIGTA analysis of the partnership BRTF for PYs 2000 and 2004.




2
  The IRS began collecting information on foreign partnership returns with the TY 2000 partnership returns
processed in PY 2001.
3
  The IRS began collecting information on other partnership returns with the TY 2000 partnership returns processed
in PY 2001.
                                                                                                             Page 20
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



Figure 6: Industry Composition of Partnership Filings (PY 2004). The top 5 industry
classifications accounted for 71 percent of all partnership filings in PY 2004. “Real Estate and
Rental & Leasing” and “Finance/Insurance” made up 53 percent of these partnership filings in
PY 2004.

                              15,341, (1%)
                                                1,067,465, (42%)
      725,317, (29%)
                                                              Real Estate and Rental & Leasing
                                                              Finance/Insurance
                                                              Professional, Scientific, and Technical Services
                                                              Construction
                                                              Other Than a Service
                                                              All Other Industries
     137,384, (5%)                                            Unknown

       140,783, (6%)
             160,963, (6%)         276,636, (11%)

Source: TIGTA analysis of the partnership BRTF for PY 2004.

Figure 7: Industry Composition of S Corporation Filings (PY 2004). The top 5 industry
classifications accounted for 72 percent of the S corporation filings in PY 2004. Service sector
industries made up 31 percent of these S corporation filings in PY 2004.

                              70,043, (2%)

      894,521, (26%)                                  1,090,354, (31%)
                                                                           Service Industry Sectors
                                                                           Construction
                                                                           Retail Trade
                                                                           Real Estate and Rental & Leasing
                                                                           Health Care & Social Assistance
  202,466, (6%)
                                                                           All Other Industries
                                                                           Unknown

                                                    436,535, (13%)
        394,836, (11%)
                              399,625, (11%)
Source: TIGTA analysis of the S corporation BRTF for PY 2004.




                                                                                                        Page 21
                               Filing Characteristics and Examination Results for
                                        Partnerships and S Corporations



Figure 8: Partnership Filings by Industry Classification. Partnership returns processed in
PYs 2000 - 2004 were concentrated in the real estate and finance/insurance industry sectors. The
top 5 industry categories of partnerships grew 28 percent.
                                                                                                    Percentage
                                                         Processing Years                            Change
                                                                                                    PYs 2000 -
     Industry Classification          2000        2001         2002          2003         2004         2004
  1. Real Estate and Rental &
  Leasing                             832,348     878,128     925,188       1,001,047   1,067,465      28.25%
  2. Finance/Insurance                210,971     240,095     259,380         271,205     276,636      31.13%
  3. Professional, Scientific, and
  Technical Services                  127,744     135,935     144,795        154,326     160,963       26.00%
  4. Construction                     113,797     120,903     128,200        133,918     140,783       23.71%
  5. Other Than a Type of
  Service                             103,056     107,456     109,211        124,814     137,384       33.31%
            Totals for Top 5
            Industries               1,387,916   1,482,517   1,566,774      1,685,310   1,783,231      28.48%
  Retail Trade                         107,712     109,850     113,064        121,539     128,355      19.16%
  Agriculture, Forestry, Fishing,
  and Hunting                         116,885     119,331     121,205        125,534     127,475        9.06%
  Other Services                       60,656      63,183      66,773         72,772      77,503       27.77%
  Accommodation and Food
  Services                             58,861      62,565       66,356        72,157      76,546       30.05%
  Health Care and Social
  Assistance                           37,254      39,626      42,615         46,153      49,087       31.76%
  Manufacturing                        33,250      35,293      36,736         39,915      41,833       25.81%
  Wholesale Trade                      28,503      31,134      33,266         35,519      38,173       33.93%
  Arts, Entertainment, and
  Recreation                           26,965      28,703       30,773        33,430      35,436       31.41%
  Administration and Support,
  Waste Management, and
  Remediation Services                 23,391      26,104       28,653        32,328      34,611       47.97%
  Transportation and
  Warehousing                          21,099      23,184      24,902         27,388      28,791       36.46%
  Information                          21,105      22,812      23,663         26,366      27,969       32.52%
  Mining                               23,876      24,269      25,032         26,222      26,875       12.56%
  Management of Companies
  and Enterprises                    11,684      13,148       14,644           17,399      18,520       58.51%
  Education Services                  4,029       4,341        4,797            5,361       5,857       45.37%
  Service Type of Business            7,372       8,274        7,823            7,296       5,582      -24.28%
  Utilities                           2,107       2,315        2,448            2,579       2,704       28.33%
  Unknown                            92,463      67,186       56,410           15,819      15,341      -83.41%
            Totals               2,065,128 2,163,835 2,265,934              2,393,087   2,523,889       22.21%
 Source: TIGTA analysis of the partnership BRTF for PYs 2000 - 2004.




                                                                                                        Page 22
                                    Filing Characteristics and Examination Results for
                                             Partnerships and S Corporations



Figure 9: S Corporation Filings by Industry Classification. The top 5 industry categories of
S corporations grew 30 percent in PYs 2000 - 2004. Industry classifications in the service sector
grew 30 percent.
                                                                                                      Percentage
                                                           Processing Years                            Change
                                                                                                      PYs 2000 -
       Industry Classification           2000        2001        2002           2003        2004         2004
     1. Service Industry Sectors4        840,089     913,632     971,034      1,045,206   1,090,354       29.79%
     2. Construction                     322,702     355,350     385,328        411,324     436,535       35.27%
     3. Retail Trade                     325,090     342,665     362,761        384,347     399,625       22.93%
     4. Real Estate and Rental &
     Leasing                             319,048     334,426     352,210       374,264     394,836       23.75%
     5. Health Care and Social
     Assistance                          133,873     148,351     165,227       184,414     202,466       51.24%
               Totals for Top 5
               Industries               1,940,802   2,094,424   2,236,560     2,399,555   2,523,816      30.04%
     Wholesale Trade                      152,130     158,089     164,267       166,274     167,710      10.24%
     Manufacturing                        140,785     145,664     149,181       153,892     154,837       9.98%
     Finance/Insurance                    108,189     116,960     125,390       133,569     140,615      29.97%
     Transportation and
     Warehousing                          88,383      95,625     100,858       107,522     111,646       26.32%
     Agriculture, Forestry, Fishing,
     and Hunting                          66,441      69,967      72,683        75,916      77,639       16.85%
     Arts, Entertainment, and
     Recreation                           57,301      60,923      65,403        69,740      72,998       27.39%
     Other Than a Type of Service         72,927      63,471      63,461        64,742      72,523       -0.55%
     Information                          49,908      52,848      55,021        56,974      59,251       18.72%
     Mining                               18,033      18,294      18,655        19,302      19,483        8.04%
     Management of Companies
     and Enterprises                    12,007      12,234      13,041    13,655             14,185      18.14%
     Utilities                           3,325       3,265       3,362     3,594              3,634       9.29%
     Unknown                           180,204     129,499     103,610    83,325             70,043     -61.13%
               Totals                2,890,435 3,021,263 3,171,492 3,348,060              3,488,380      20.69%
    Source: TIGTA analysis of the S corporation BRTF for PYs 2000 - 2004.




4
 For presentation purposes, we combined several service industry sectors. The specific sectors combined included
Professional, Scientific and Technical Services, Other Services, Accommodation and Food Services, Administration
and Support, Waste Management and Remediation Services, Education Services, and Service.
                                                                                                          Page 23
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



Figure 10: Ownership of Partnerships (PY 2004). Ninety-three percent of all partnerships
have 10 or fewer partners. Fifty-three percent of partnerships have 2 partners, 17 percent have
3 partners, 23 percent have 4 to 10 partners, and 6 percent have 11 to 50 partners. Partnerships
with 51 or more partners represent only 1 percent of all partnerships.

                            17,397, (1%)
        146,785, (6%)

                                                                     2 Partners
     590,468, (23%)
                                                                     3 Partners
                                                                     4 to 10 Partners
                                             1,348,554, (53%)        11 to 50 Partners
                                                                     51 or More Partners


        420,685, (17%)


Source: TIGTA analysis of the partnership BRTF for PY 2004.

Figure 11: Ownership of S Corporations (PY 2004). Eighty-seven percent of S corporations
have three or fewer shareholders. Fifty-four percent of S corporations have 1 shareholder,
28 percent have 2 shareholders, and 5 percent have 3 shareholders.

                          229,567, (7%)
           20,143, (1%)
     183,574, (5%)                                                1 Shareholder
                                                                  2 Shareholders
     187,927, (5%)
                                                                  3 Shareholders
                                                                  4 to 10 Shareholders
                                            1,875,969, (54%)
                                                                  11 or More Shareholders
        954,801, (28%)                                            Unknown




Source: TIGTA analysis of the S corporation BRTF for PY 2004.




                                                                                            Page 24
                                 Filing Characteristics and Examination Results for
                                          Partnerships and S Corporations



Figure 12: Tiered Partnership5 Filings by Asset Class. Tiered partnerships grew 31 percent
in PYs 2000 – 2004, while tiered partnerships with $10 million or more in assets grew
45 percent.
                                                                                                       Percentage
                                                            Processing Years                            Change
                                                                                                       PYs 2000 -
              Asset Class              2000          2001         2002          2003        2004          2004
     Under $250,000                    136,478       126,237      135,585       164,426     177,573        30.11%
     $250,000 to under $1 million       71,268        70,165       75,158        82,085      86,002        20.67%
     $1 million to under $5 million     88,039        90,729       98,916       108,813     115,369        31.04%
     $5 million to under $10 million    24,576        26,044       29,434        32,732      34,595        40.77%
     $10 million to under
     $50 million                         26,256       28,257       32,810        35,350       37,922       44.43%
     $50 million to under
     $100 million                         4,355        4,621         5,641        5,683        6,138       40.94%
     $100 million to under
     $250 million                        3,012       3,252        3,935           4,046       4,360        44.75%
     $250 million and over               2,031       2,087        2,737           2,782       3,183        56.72%
               Totals                  356,015    351,392      384,216          435,917     465,142        30.65%
    Source: TIGTA analysis of the partnership BRTF for PYs 2000 - 2004.

Figure 13: Top 5 Industry Classifications of Tiered Partnership Filings With Assets of
$10 Million or More. Tiered partnerships with assets over $10 million grew 45 percent in
PYs 2000 - 2004. Partnerships in the “Finance/Insurance” category grew 63 percent, while
partnerships in the “Real Estate and Rental & Leasing” category grew 43 percent.
                                                                                                       Percentage
                                                            Processing Years                            Change
                                                                                                       PYs 2000 -
       Industry Classification          2000         2001         2002          2003         2004         2004
     1. Real Estate and Rental &
     Leasing                             16,488       17,764       20,703        22,278       23,658       43.49%
     2. Finance/Insurance                11,144       12,303       15,253        16,142       18,149       62.86%
     3. Accommodation and Food
     Services                               975          977         1,089        1,108        1,136       16.51%
     4. Management of Companies
     and Enterprises                        818          809           938        1,053        1,095       33.86%
     5. Manufacturing                       673          761           853          910          946       40.56%
              Totals for Top 5
              Industries                30,098      32,614       38,836          41,491       44,984       49.46%
     All Other Industries                3,804       4,017        4,433           4,710        4,912       29.13%
     Unknown                             1,752       1,586        1,854           1,660        1,707       -2.57%
              Totals                    35,654      38,217       45,123          47,861       51,603       44.73%
    Source: TIGTA analysis of the partnership BRTF for PYs 2000 to 2004.


5
    A tiered partnership generally involves one that owns or is owned by one or more other partnerships.
                                                                                                           Page 25
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



Figure 14: Partnership Return Examinations by Asset Class. Partnership return
examinations increased 37 percent between FYs 2004 and 2005 with the largest increase,
66 percent, taking place in partnership returns with assets of $250,000 to under $1 million.
                                                 Fiscal Years                            Percentage Change
                                                                                      FYs 2001 -    FYs 2004 -
           Asset Class              2001     2002      2003      2004       2005        2005          2005
  Under $250,000                    1,217    1,536     2,490     2,199      3,544       191.21%            61%
  $250,000 to under $1 million        592      734       938       622      1,035         74.83%           66%
  $1 million to under $5 million      749      939     1,249       838      1,243         65.95%           48%
  $5 million to under $10 million     248      370       626       356        469         89.11%           32%
  $10 million to under
  $50 million                        405      597      1,027        982      935          130.86%          -5%
  $50 million to under
  $100 million                       171      172       272         272      286           67.25%           5%
  $100 million to under
  $250 million                      127      160       243      290      307       141.73%              6%
  $250 million and over             154      240       283      348      409       165.58%             18%
  Unknown                         1,392      779       712      254      187        -86.54%           -26%
            Totals                5,055    5,527     7,840    6,161    8,415         66.47%            37%
 Source: TIGTA analysis of the AIMS for partnership return examinations completed in FYs 2001 - 2005.

Figure 15: S Corporation Return Examinations by Asset Class. S corporation return
examinations increased 63 percent between FYs 2004 and 2005 with the largest increase,
119 percent, taking place in returns with assets of $1 million to under $5 million.
                                                     Fiscal Years                           Percentage Change
                                                                                          FYs 2001 - FYs 2004 -
           Asset Class              2001      2002       2003       2004      2005          2005         2005
  Under $250,000                     4,631     4,807     4,367      3,473      5,737         23.88%         65%
  $250,000 to under $1 million       1,567     1,697     1,359        616      1,189        -24.12%         93%
  $1 million to under $5 million     2,242     2,351     1,751        617      1,353        -39.65%        119%
  $5 million to under $10 million      802       885       654        282        569        -29.05%        102%
  $10 million to under
  $50 million                        1,122      942        963       795       1,063         -5.26%        34%
  $50 million to under
  $100 million                        143       135        132       132            150       4.90%        14%
  $100 million to under
  $250 million                        97         97       97       91        106        9.28%           16%
  $250 million and over               30         34       39       58         42       40.00%          -28%
  Unknown                          1,818        695      333      336        201      -88.94%          -40%
            Totals                12,452     11,643    9,695    6,400     10,410      -16.40%           63%
 Source: TIGTA analysis of the AIMS for S corporation return examinations completed in FYs 2001 - 2005.




                                                                                                         Page 26
                               Filing Characteristics and Examination Results for
                                        Partnerships and S Corporations



Figure 16: Top 5 Industry Classifications of Partnership Return Examinations.
Examination of partnership returns in the “Finance/Insurance” and the “Real Estate and Rental &
Leasing” industry classifications increased 228 percent and 97 percent, respectively, in FYs
2001 - 2005.
                                                     Fiscal Years                      Percentage Change
                                                                                     FYs 2001 - FYs 2004 -
       Industry Classification         2001     2002     2003       2004    2005       2005         2005
    1. Finance/Insurance                 566      756    1,111      1,084   1,856      227.92%       71.22%
    2. Real Estate and Rental &
    Leasing                              813    1,020    1,470      1,245   1,601       96.92%      28.59%
    3. Agriculture, Forestry,
    Fishing, and Hunting                 261     378      499        241     578       121.46%     139.83%
    4. Professional, Scientific, and
    Technical Services                   213     229      392        414     505       137.09%      21.98%
    5. Retail Trade                      158     259      420        351     493       212.03%      40.46%
              Totals Top 5
              Industries           2,011    2,642     3,892    3,335    5,033      150.27%         50.91%
    All Other Industries           1,453    1,906     3,028    2,479    3,104      113.63%         25.21%
    Unknown                        1,591      979       920      347      278       -82.53%       -19.88%
              Totals               5,055    5,527     7,840    6,161    8,415        66.47%        36.58%
  Source: TIGTA analysis of the AIMS for partnership return examinations completed in FYs 2001 - 2005.

Figure 17: Top 5 Industry Classifications of S Corporation Return Examinations.
Examinations of S corporation returns in the “Retail Trade” industry increased 26 percent, while
those in the “Construction” industry declined 25 percent between FYs 2004 and 2005.
                                                     Fiscal Years                       Percentage Change
                                                                                      FYs 2001 - FYs 2004 -
     Industry Classification           2001     2002     2003       2004    2005        2005         2005
  1. Retail Trade                       1,057    1,153   1,027        751    1,332       26.02%       77.36%
  2. Construction                       1,554    1,572   1,333        600    1,160      -25.35%       93.33%
  3. Finance/Insurance                    423      528     377        376      960      126.95%     155.32%
  4. Manufacturing                      1,335    1,297   1,006        547      906      -32.13%       65.63%
  5. Professional, Scientific, and
  Technical Services                     829      908      832        713      895        7.96%      25.53%
            Totals Top 5
            Industries             5,198      5,458    4,575    2,987      5,253        1.06%        75.86%
  All Other Industries             4,782      4,924    4,383    2,881      4,716       -1.38%        63.69%
  Unknown                          2,472      1,261      737      532        441      -82.16%       -17.11%
            Totals                12,452     11,643    9,695    6,400    10,410       -16.40%        62.66%
 Source: TIGTA analysis of the AIMS for S corporation return examinations completed in FYs 2001 - 2005.




                                                                                                       Page 27
                                 Filing Characteristics and Examination Results for
                                          Partnerships and S Corporations



Figure 18: Partnership Return Examinations by Type of Entity Classification. Partnership
return examinations increased 37 percent between FYs 2004 and 2005. LLC examinations
increased 51 percent, Limited Partnership examinations increased 43 percent, LLP examinations
increased 10 percent, and General Partnership examinations increased 30 percent during the
period.
                                                  Fiscal Years                    Percentage Change
            Partnership                                                        FYs 2001 - FYs 2004 -
            Classification        2001     2002     2003      2004    2005        2005          2005
      General Partnership          1,261   1,372    2,060     1,463    1,903      50.91%          30.08%
      Limited Partnership          1,135   1,481    2,003     1,631    2,332     105.46%          42.98%
      LLC                          1,038   1,550    2,568     2,264    3,414     228.90%          50.80%
      LLC                             76      93      119       123      135      77.63%           9.76%
      Foreign Partnership6                    21        19       20       40      90.48%        100.00%
      Other7                                  16        28       34       27      68.75%         -20.59%
      Unknown                      1,545     994    1,043       626      564     -63.50%          -9.90%
               Totals              5,055   5,527    7,840     6,161    8,415      66.47%          36.58%
     Source: TIGTA analysis of the AIMS for partnership return examinations completed in FYs 2001 - 2005.

Figure 19: Partnership Return Examination No-Change Rates by Asset Class. The
partnership no-change rate increased by 16 percent to a 44 percent no-change rate between
FYs 2004 and 2005. The largest increase was in returns with assets of $250,000 to under
$1 million, which increased 63 percent to a 55 percent no-change rate.
                                                     Fiscal Years                          Percentage Change
                                                                                         FYs 2001 - FYs 2004 -
         Asset Class                2001     2002        2003        2004      2005        2005         2005
Under $250,000                     42.70%   39.11%      41.47%      33.93%    41.86%        -1.96%       23.40%
$250,000 to under $1 million       45.30%   43.70%      51.87%      33.93%    55.40%        22.31%       63.30%
$1 million to under $5 million     48.28%   49.89%      53.74%      38.68%    52.79%         9.34%       36.48%
$5 million to under
$10 million                        44.55%   46.44%      53.96%      47.99%    42.17%         -5.32%       -12.12%
$10 million to under
$50 million                        47.38%   58.52%      58.70%      48.83%    38.66%        -18.40%       -20.83%
$50 million to under
$100 million                       24.79%   48.70%      58.15%      49.54%    37.60%        51.67%        -24.10%
$100 million to under
$250 million                   46.75%     45.24%      54.12%    31.11%     38.03%        -18.65%           22.25%
$250 million and over          48.57%     48.00%      39.55%    27.44%     28.72%        -40.87%            4.66%
Unknown                        43.71%     37.43%      31.41%    29.61%     28.33%        -35.18%           -4.32%
          Totals               44.32%     44.46%      48.01%    37.94%     44.13%         -0.44%           16.31%
Source: TIGTA analysis of the AIMS for partnership return examinations completed in FYs 2001 - 2005.


6
  The IRS began collecting information on foreign partnership returns with the TY 2000 partnership returns
processed in PY 2001.
7
  The IRS began collecting information on other partnership returns with the TY 2000 partnership returns processed
in PY 2001.
                                                                                                         Page 28
                                  Filing Characteristics and Examination Results for
                                           Partnerships and S Corporations



Figure 20: S Corporation Return Examination No-Change Rates by Asset Class. The
partnership no-change rate increased 48 percent to 43 percent between FYs 2004 and 2005. The
largest increase was in returns with assets of $1 million to under $5 million, which increased
141 percent to a 52 percent no-change rate between FYs 2004 and 2005.
                                                          Fiscal Years                         Percentage Change
                                                                                             FYs 2001 - FYs 2004 -
          Asset Class                2001         2002       2003         2004       2005      2005         2005
Under $250,000                      40.83%       39.75%     39.92%       29.62%     40.55%      -0.68%       36.92%
$250,000 to under $1 million        41.80%       35.00%     36.55%       21.92%     40.69%      -2.65%       85.67%
$1 million to under $5 million      40.20%       42.02%     38.89%       21.79%     52.48%      30.55%     140.84%
$5 million to under $10 million     37.33%       37.44%     36.36%       24.11%     55.71%      49.25%     131.04%
$10 million to under
$50 million                         34.53%       36.98%     32.98%       41.27%     45.52%       31.84%      10.32%
$50 million to under
$100 million                        35.56%       31.58%     33.33%       38.64%     31.29%      -11.99%      -19.01%
$100 million to under
$250 million                    28.57%     30.43%     41.94%     34.44%     36.79%        28.77%        6.82%
$250 million and over           28.57%     40.63%     27.78%     20.00%     35.90%        25.64%       79.49%
Unknown                         34.36%     25.00%     26.81%     23.33%     29.35%       -14.58%       25.80%
          Totals                38.93%     38.08%     37.78%     29.16%     43.05%        10.59%       47.62%
Source: TIGTA analysis of the AIMS for S corporation return examinations completed in FYs 2001 - 2005.

Figure 21: Partnership Adjustments. Partnership examination adjustments increased
82 percent between FYs 2004 and 2005, from $2.3 billion to $4.3 billion.
                                                                                                          Percentage
                                                               Fiscal Years                                Change
                                                                                                          FYs 2004 -
         Asset Class                   2001          2002          2003            2004         2005         2005
Under $250,000                        $134,732      $198,312      $223,627        $384,169   $1,612,941      319.85%
$250,000 to under $1 million            79,725     1,414,057       316,387         248,521       49,629       -80.03%
$1 million to under $5 million         104,377        49,325       924,701         228,726      248,712         8.74%
$5 million to under $10 million         30,965        27,343       154,092         127,044      153,126        20.53%
$10 million to under
$50 million                             77,358       123,873         243,002       868,574     676,177       -22.15%
$50 million to under
$100 million                            30,132       213,179          63,952       141,028     315,760       123.90%
$100 million to under
$250 million                        42,364      174,919      356,084      231,962       268,638               15.81%
$250 million and over              238,807       41,056      169,080       90,385       826,324              814.23%
Unknown                            363,487      307,372      362,471       23,014       102,694              346.22%
          Totals                $1,101,948 $2,549,436 $2,813,395 $2,343,423 $4,254,001                        81.53%
Source: TIGTA analysis of the AIMS for partnership return examinations completed in FYs 2001 - 2005.




                                                                                                            Page 29
                                  Filing Characteristics and Examination Results for
                                           Partnerships and S Corporations



 Figure 22: S Corporation Adjustments. S corporation examination adjustments increased
 81 percent between FYs 2004 and 2005, from $1.05 billion to $1.90 billion.
                                                                                                    Percentage
                                                             Fiscal Years                            Change
                                                                                                    FYs 2004 -
          Asset Class                  2001        2002          2003         2004       2005          2005
 Under $250,000                       $188,328    $212,102      $686,429     $300,115   $488,000        62.60%
 $250,000 to under $1 million           69,891      95,758       101,681       55,866    152,439       172.86%
 $1 million to under $5 million        181,041     147,002       129,929       95,014    194,157       104.35%
 $5 million to under $10 million        68,362      84,887        79,487       75,198     96,318        28.09%
 $10 million to under
 $50 million                           222,357     418,899       377,428      185,734    472,187          154.23%
 $50 million to under
 $100 million                           57,584      22,752        74,342       43,441     66,327           52.68%
 $100 million to under
 $250 million                        66,979        64,194      134,967      179,283      313,533           74.88%
 $250 million and over                8,451        14,129       58,928       68,505       84,779           23.76%
 Unknown                            471,812        98,798      361,222       46,593       35,027          -24.82%
           Totals                $1,334,805 $1,158,521 $2,004,413 $1,049,748 $1,902,767                    81.26%
 Source: TIGTA analysis of the AIMS for S corporation return examinations completed in FYs 2001 - 2005.

 Figure 23: Partnership Unagreed and Agreed Examination Results by Asset Class
 (FYs 2004 - 2005). Unagreed examination adjustments increased 78 percent, while agreed
 examination adjustments increased 87 percent between FYs 2004 and 2005.
                                                 (In Thousands)
                                    Unagreed Examination Adjustments          Agreed Examination Adjustments
                                                           Percentage                              Percentage
        Total Assets                FY 2004     FY 2005     Change          FY 2004    FY 2005       Change
Under $250,000                       $241,082 $1,389,298      476.28%       $143,086    $223,642        56.30%
$250,000 to under $1 million          164,687     39,399      -76.08%         83,834      10,073       -87.98%
$1 million to under $5 million        126,449     63,502      -49.78%        102,277     185,210        81.09%
$5 million to under $10 million        26,933    112,987      319.51%        100,112      40,139       -59.91%
$10 million to under
$50 million                           715,272    454,910        -36.40%      153,301     221,268            44.34%
$50 million to under
$100 million                          101,913    229,802        125.49%       39,115      85,957           119.75%
$100 million to under
$250 million                       40,983      151,811        270.42%      190,979        116,826        -38.83%
$250 million and over              44,098      141,958        221.91%       46,287        684,366      1,378.54%
Unknown                             6,792        36,070       431.05%       16,222         66,624        310.71%
          Totals               $1,468,210 $2,619,739           78.43% $875,213         $1,634,105         86.71%
 Source: TIGTA analysis of the AIMS for partnership and S corporation return examinations completed in FYs 2004
 and 2005.




                                                                                                          Page 30
                              Filing Characteristics and Examination Results for
                                       Partnerships and S Corporations



Figure 24: S Corporation Unagreed and Agreed Examination Results by Asset Class
(FYs 2004 - 2005). Unagreed examination adjustments increased 72 percent, while agreed
examination adjustments increased 91 percent between FYs 2004 and 2005.
                                                 (In Thousands)
                                   Unagreed Examination Adjustments        Agreed Examination Adjustments
                                                         Percentage                             Percentage
          Total Assets             FY 2004    FY 2005     Change          FY 2004    FY 2005     Change
 Under $250,000                     $170,551  $228,642       34.06%       $129,424   $259,298      100.35%
 $250,000 to under $1 million         33,281   121,021     263.63%          22,585     31,418       39.11%
 $1 million to under $5 million       38,515   133,797     247.39%          56,499     60,360        6.83%
 $5 million to under $10 million      34,760    56,887       63.66%         40,438     39,431       -2.49%
 $10 million to under
 $50 million                          93,744      202,153     115.64%       91,989      270,034        193.55%
 $50 million to under
 $100 million                         26,481       24,781      -6.42%       16,960       41,546        144.97%
 $100 million to under
 $250 million                      99,949      133,432        33.50%        79,335     180,100        127.01%
 $250 million and over             31,861       35,307        10.81%        36,644      49,472         35.01%
 Unknown                           19,879         9,274      -53.35%        26,714      25,724         -3.70%
           Totals                $549,022     $945,294        72.18% $500,587         $957,385         91.25%
Source: TIGTA analysis of the AIMS for partnership and S corporation return examinations completed in FYs 2004
and 2005.

Figure 25: Partnership Examination Hours per Return by Asset Class. Hours per return fell
34 percent, from 74 hours to 49 hours, on partnership examinations between FYs 2004 and 2005.
The greatest decline came on returns with assets of $250 million and over, with a decline of
51 percent from 304 hours to 150 hours.
                                                    Fiscal Years                        Percentage Change
                                                                                      FYs 2002 - FYs 2004 -
          Asset Class                2002         2003        2004        2005          2005        2005
 Under $250,000                             36           38          44          39       7.30%        -11.00%
 $250,000 to under $1 million               45           53          49          36     -19.97%        -25.80%
 $1 million to under $5 million             51           60          56          34     -32.52%        -38.35%
 $5 million to under $10 million            65           78          79          51     -21.73%        -35.90%
 $10 million to under
 $50 million                                56           98        114           80      43.38%        -30.39%
 $50 million to under
 $100 million                            149             91        138        104       -30.26%        -24.85%
 $100 million to under
 $250 million                            163          128          150         85       -48.02%        -43.72%
 $250 million and over                   138          192          304        150         8.48%        -50.74%
 Unknown                                  56           35           36         32       -43.39%        -13.09%
           Totals                         54           61           74         49        -8.83%        -33.82%
Source: TIGTA analysis of the AIMS for partnership return examinations completed in FYs 2002 - 2005.




                                                                                                       Page 31
                                 Filing Characteristics and Examination Results for
                                          Partnerships and S Corporations



Figure 26: S Corporation Examination Hours per Return by Asset Class. Hours per return
fell 23 percent, from 66 hours to 50 hours, on S corporation examinations between FYs 2004 and
2005. The largest decline came on returns with assets of $1 million to under $5 million, with a
decline of 34 percent from 64 hours to 42 hours.
                                                            Fiscal Years                               Percentage Change
                                                                                                     FYs 2002 -   FYs 2004 -
             Asset Class                2002           2003               2004         2005            2005         2005
    Under $250,000                             50              53                47           36         -26.66%      -22.87%
    $250,000 to under $1 million               51              56                54           38         -25.18%      -29.41%
    $1 million to under $5 million             61              70                64           42         -31.37%      -33.63%
    $5 million to under $10 million            77              84                84           58         -25.08%      -31.24%
    $10 million to under
    $50 million                             120              133             120          113             -5.53%       -5.67%
    $50 million to under
    $100 million                            155              161             129          160             3.20%        23.87%
    $100 million to under
    $250 million                            250              245             198          142            -43.30%      -28.19%
    $250 million and over                   285              225             231          201            -29.64%      -13.18%
    Unknown                                  83               94              50           66            -20.64%       30.54%
              Totals                         65               72              66           50            -23.09%      -23.41%
Source: TIGTA analysis of the AIMS for S corporation return examinations completed in FYs 2002 - 2005.

Figure 27: Partnership Examination Cycle Time8 per Return by Asset Class. The length of
an examination as measured by average cycle time declined 19 percent, from 590 calendar days
to 478 calendar days between FYs 2004 and 2005.
                                                        Fiscal Years                                  Percentage Change
                                                                                                   FYs 2001 -    FYs 2004 -
               Asset Class              2001        2002       2003        2004       2005           2005          2005
      Under $250,000                      551         458        393         495        456          -17.29%         -7.95%
      $250,000 to under $1 million        407         376        393         530        350          -13.99%        -33.96%
      $1 million to under $5 million      448         435        433         551        386          -13.90%        -29.96%
      $5 million to under $10 million     510         526        497         511        521            2.21%          1.87%
      $10 million to under
      $50 million                         547        489            444      482       516            -5.59%         7.22%
      $50 million to under
      $100 million                        595        510            477      479       581            -2.39%        21.33%
      $100 million to under
      $250 million                     626       758      743       544     554       -11.56%           1.82%
      $250 million and over            661       720      587       735     625        -5.51%         -15.00%
      Unknown                        1,188     1,665    3,075     2,521   1,585        33.48%         -37.11%
                Totals                 686       626      661       590     478       -30.29%         -18.91%
     Source: TIGTA analysis of the AIMS for partnership return examinations completed in FYs 2001 - 2005.




8
    Cycle time is the number of calendar days it takes to complete the examination of a tax return.
                                                                                                                      Page 32
                             Filing Characteristics and Examination Results for
                                      Partnerships and S Corporations



Figure 28: S Corporation Examination Cycle Time per Return by Asset Class. The length
of an examination as measured by average cycle time declined 21 percent, from 421 calendar
days to 334 calendar days between FYs 2004 and 2005.
                                                Fiscal Years                    Percentage Change
                                                                              FYs 2001 -  FYs 2004 -
             Asset Class              2001   2002   2003    2004     2005       2005         2005
    Under $250,000                     322    328     356    380       314       -2.33%      -17.21%
    $250,000 to under $1 million       324    334     352    473       333        2.92%      -29.57%
    $1 million to under $5 million     307    302     361    510       316        3.04%      -38.02%
    $5 million to under $10 million    297    328     362    480       314        5.95%      -34.51%
    $10 million to under
    $50 million                        354    396     383      385     315       -10.92%       -18.15%
    $50 million to under
    $100 million                       459    451     415      370     438        -4.55%        18.17%
    $100 million to under
    $250 million                   513       461      486      458      413      -19.59%         -9.86%
    $250 million and over          539       608      463      422      486       -9.71%         15.31%
    Unknown                        596       786    1,301      648    1,010       69.44%         55.84%
              Totals               364       360      394      421      334       -8.35%        -20.86%
  Source: TIGTA analysis of the AIMS for S corporation return examinations completed in FYs 2001 - 2005.




                                                                                                    Page 33
